CERTIFICATE OF COMPLIANCE
Docket No. 19-831
Jarchow, et al. v. State Bar of Wisconsin et al.,
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus
Curiae of Pacific Legal Foundation, Cato Institute, Atlantic Legal
Foundation, Reason Foundation, and Individual Rights Foundation In
Support of Petitioners contains 3,503 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 29, 2020.

DEBORAH J. LAFETRA
Counsel of Record
Pacific Legal Foundation
930 G Street
Sacramento, California 95814
Telephone: (916) 419-7111
E-mail: DLaFetra@pacificlegal.org
Counsel for Amici Curiae of
Pacific Legal Foundation et al.

